Department of Homeland Security
   Ofﬁce of Inspector General

            Management Letter for U.S. Customs 
 

              and Border Protection’s FY 2010 
 

             Consolidated Financial Statements
 





OIG-11-65                                        March 2011
                                                           Office ofInspector General

                                                           U.S. Department of Homeland Security
                                                           Washington, DC 20528




                                                           Homeland
                                                           Security
                                           MAR 28 2011

                                            Preface

The Department of Homeland Security (DHS) Office ofInspector General (DIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report presents the management letter for U.S. Customs and Border Protection's
(CBP) FY 2010 consolidated financial statements audit. It contains observations related
to internal controls that were not required to be reported in the Independent Auditors'
Report on the financial statements. The independent public accounting firm KPMG LLP
(KPMG) conducted the audit ofCBP's FY 2010 financial statements and prepared this
management letter. Material weaknesses and other significant deficiencies were reported,
as required, inKPMG's Independent Auditors' Report, dated January 25,2011. KPMG
is responsible for the attached management letter dated March 7, 2011, and the
conclusions expressed in it. We do not express opinions on CBP's financial statements
or internal control, or provide conclusions on compliance with laws and regulations.

The observations herein have been discussed in draft with those responsible for
implementation. We trust this report will result in more effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to
the preparation of this report.


                                            ~<~
                                            Anne L. Richards
                                            Assistant Inspector General for Audits
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036-3389




March 7, 2011


Office of Inspector General and Chief Financial Officer,
U.S. Department of Homeland Security,
Washington, DC


Chief Financial Officer,
U.S. Customs and Border Protection

Ladies and Gentlemen:

We have audited the consolidated balance sheets of the U.S. Customs and Border Protection
(CBP), a Component of the U.S. Department of Homeland Security (DHS), as of September 30,
2010 and 2009, and the related consolidated statements of net cost, changes in net position,
custodial activity, and the combined statements of budgetary resources (hereinafter, referred to as
“consolidated financial statements”) for the years then ended. In planning and performing our
audit of CBP’s consolidated financial statements, we considered CBP’s internal control over
financial reporting in order to determine our auditing procedures for the purpose of expressing
our opinion on the consolidated financial statements.

In connection with our fiscal year (FY) 2010 engagement, we considered CBP’s internal control
over financial reporting by obtaining an understanding of CBP’s internal controls, determining
whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls in order to determine our procedures. We limited our internal control testing to
those controls necessary to achieve the objectives described in Government Auditing Standards
and the Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements, as amended. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982
(FMFIA). The objective of our engagement was not to provide an opinion on the effectiveness of
CBP’s internal control over financial reporting. Accordingly, we do not express an opinion on
the effectiveness of CBP’s internal control over financial reporting.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. A significant deficiency is a deficiency, or
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance.




                              KPMG LLP is a Delaware limited liability partnership,
                              the U.S. member firm of KPMG International Cooperative
                              (“KPMG International”), a Swiss entity.
We noted certain matters involving internal control and other operational matters that are listed on
page one in the Table of Financial Management Comments, and are presented for your
consideration. These comments and recommendations, all of which have been discussed with the
appropriate members of management, are intended to improve internal control or result in other
operating efficiencies. These comments are in addition to the significant deficiencies and
material weakness presented in our Independent Auditors’ Report, dated January 25, 2011
included in the FY 2010 CBP Annual Financial Report. A description of each internal control
finding, and its disposition, as either a material weakness, significant deficiency, or a financial
management comment, is provided in Appendix A. Our findings related to information
technology systems have been presented in a separate letter to the Office of Inspector General and
the DHS Chief Information Officer.

We would be pleased to discuss these comments and recommendations with you at any time.
This report is intended for the information and use of DHS and CBP management, the Office of
Inspector General, the OMB, the U.S. Congress, and the Government Accountability Office, and
is not intended to be and should not be used by anyone other than these specified parties.

Very truly yours,
                                   Department of Homeland Security
                                  U.S. Customs and Border Protection
                               Table of Financial Management Comments
                                          September 30, 2010

TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)
Comment
Reference   Subject                                                                              Page
FMC 10-01   Automated Commercial System (ACS) deficiency over the accumulation of claims         2
            against a drawback bond
FMC 10-02   Improper Control Design of “Failed Disbursements Report”                             2
FMC 10-03   Lack of controls over timely processing of goods and services received               3
FMC 10-04   Weaknesses in the monitoring and review process over the completion of Fines,        3
            Penalties, and Forfeitures (FP&F) cases
FMC 10-05   Weakness in the review of weekly/monthly Entry exception/edit reports                4
FMC 10-06   Lack of Implementation of Controls over Determining Capital Leases                   5
FMC 10-07   Lack of formal policies over review of Importer Self-Assessment (ISA) Annual         5
            Notification Letters
FMC 10-08   Failure to complete supervisory review of drawback claims                            5
FMC 10-09   Certification of Refund and Drawback Payments                                        6
FMC 10-10   Failure to review the D28 Alert Report                                               6
FMC 10-11   Deficiencies in CBP’s controls over the application of benefits to Customs-Trade     6
            Partnership Against Terrorism (C-TPAT) Partners
FMC 10-12   Deficiencies in CBP’s controls over calculating the validity and collectability of   7
            non-entity Taxes, Duties, and Trade Receivables, net
FMC 10-13   Deficiencies in CBP’s Seized Inventory Process                                       7
FMC 10-14   Improper Payment of Interest                                                         8
FMC 10-15   Insufficient Documentation of Statement on Auditing Standards (SAS) No. 70           9
            review
FMC 10-16   Deficiencies in CBP’s Office of Air and Marine (OAM) Inventory Process               9
FMC 10-17   Inability to Support the Injured Domestic Industries (IDI) Liability                 10

APPENDICES
Appendix    Subject                                                                              Page
A           Crosswalk – Financial Management Comments to Active NFRs                             11
B           Status of Prior Year Findings                                                        14
C           Management Response                                                                  16




                                                      1
 

                                   Department of Homeland Security
                                  U.S. Customs and Border Protection
                                   Financial Management Comments
                                         September 30, 2010


FMC 10-01: Automated Commercial System (ACS) deficiency over the accumulation of claims
against a drawback bond (NFR No. CBP 10-05)

       ACS does not properly account for bond sufficiency of claims that involve a continuous bond.
       Specifically, the automated control that prevents a claimant from exceeding the bond amount on
       file is not operating effectively. As a result, CBP may not have sufficient surety against a
       drawback over-claim. Also, there is not a manual procedure in place to ensure the sufficiency of
       bonds.

       ACS remains the system of record for drawback claims and bonds. In FY 2010, there has not
       been a program change within ACS or a manual procedure put in place to ensure bond
       sufficiency.

       Recommendations:
       We recommend that CBP:
       1.	 Continue with their design and implementation of the Automated Commercial Environment
           (ACE) to ensure that the drawback module will properly account for bond sufficiency.
       2.	 Implement a manual check, while ACE is in development, by the drawback specialist and
           technicians to query the bond on file related to the claim and verify that there is a sufficient
           amount on the bond for the claimant to be paid.

FMC 10-02: Improper Control Design of “Failed Disbursements Report” (NFR No. CBP 10-07)

      CBP’s internal control over failed disbursements is not properly designed and implemented to
      detect and correct failed disbursements in a timely manner. Specifically, we noted the following:

      �	 The Failed Disbursements Report was not reviewed during the first quarter of fiscal year
         2010.
      �	 CBP did not establish a clear administrator of the report for the entire duration of the fiscal
         year. Although the report is reviewed and relevant individuals are notified of the errors,
         sufficient follow-up is not always performed to determine if the errors are resolved. There
         were 103 stale transactions that remain unresolved on the report from previous fiscal years as
         of June 14, 2010.
      �	 Transactions dating back to FY 2005 remained unresolved on the report.

       Recommendations:
       We recommend that CBP:
       1.	 Prepare and implement formal National Finance Center (NFC) Accounts Payable Branch
           policy and procedures for working and monitoring the items on the Failed Disbursements
           Report, which includes a performance measure of having items resolved within 30 days from
           the date they appear on the report.
       2.	 Resolve the aged items on the Failed Disbursements Report by February 28, 2011.




                                                    2
 

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2010


FMC 10-03: Lack of controls over timely processing of goods and services received (NFR No. CBP
10-08)

       Contracting Officer’s Technical Representatives (COTRs) and goods receivers do not
       consistently enter goods receipts and service entry sheets timely into SAP, CBP’s financial
       reporting system. As a result, CBP must estimate accounts payable for goods or services
       received, but not entered into SAP. Although this estimation process is typically accurate, as
       evidenced by the search for unrecorded liabilities performed by CBP at the beginning of each
       fiscal year, CBP lacks controls over the process of recording the receiving of goods and services
       timely throughout the year. Specifically, we noted 32 instances out of 425 sample items selected
       for March 31, 2010 operating expenses testwork where the receiving of goods or services was not
       recorded in the proper month.

       In order to capture goods receipt/service entries not entered timely, CBP uses both workflow
       messages and an on-demand SAP “parked invoice” report available to all receiving officials.
       However, these procedures are not performed until after the receipt of an invoice, which is
       typically after the receipt of goods or services.

       We noted instances in which CBP disbursed payments outside of its normal process in SAP
       through wire transfers because the goods receipt/expense was not processed timely in SAP,
       largely due to administrative reasons with contracts. These transfers are made outside of SAP
       because the system will not allow disbursements until it has performed a three-way match
       between obligation/purchase order, goods receipt, and invoice. COTRs approve all wire transfers
       before disbursements and these wire transfers are processed outside of SAP in order to receive
       discounts, avoid late fees/interest, and/or make payment on invoices related to purchase orders
       awaiting amendment.

       Recommendations:
       We recommend that CBP:
       1.	 Incorporate the following into the existing standard operating procedures:
           �	 Provide a monthly Parked Invoice Report to the Program Offices.
           �	 Perform a weekly review of parked invoices by the NFC.
           �	 Contact the program offices to remind them of the need to enter goods receipt
               information timely via email, meetings and conference calls.
       2.	 Monitor the results of the annual Self Inspection worksheets to determine additional training
           needs.
       3.	 Continue outreach efforts that provide guidance to receiving officials through conference
           calls, newsletters, etc.

FMC 10-04: Weaknesses in the monitoring and review process over the completion of Fines,
Penalties, and Forfeitures (FP&F) cases (NFR No. CBP 10-10)

       We completed testwork related to the Action Due Report (F05) report at eleven ports with FP&F
       offices. Improvements have been made to the F05 report review process; however, we noted one
       instance where a port did not begin retaining the F05 report until January 2010. Therefore,
       evidence of review of the F05 could not be verified prior to January 2010 at this port.



                                                  3

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2010


      Recommendations:
      We recommend that CBP:
      1.	 Issue a memorandum to the Field Offices and Ports informing them of the requirement to
          retain copies of weekly F05 Reports for two years from the date the report was generated.
          Inform FP&F officers that they are accountable for complying with this policy.
      2.	 Issue an update to the Seized Asset Management and Enforcement Procedures Handbook.
      3.	 Hold a conference call for FP&F officers and supervisors to remind them of the requirement
          to run the F05 Report on a weekly basis and to retain for two years from the date the report
          was generated for self inspection purposes.

FMC 10-05: Weakness in the review of weekly/monthly Entry exception/edit reports (NFR No. CBP
10-11)

       We statistically selected eleven ports at which to perform control testwork over the entry process.
       Based on the results of testwork performed at the ports, we noted the following instances of non­
       compliance with CBP Directive 5610-004B, CBP Directive 5610-006, and Title 19 of the Code of
       Federal Regulations (CFR):
       �	 Evidence that the issues on the reports were resolved according to the applicable Directive
          could not be verified for the following:
          a.	 	 B06 Rejected/Cancelled Entries Report at one port, including supervisory review;
          b.	 B07 Unpaid/Rejected Entries Report at one port;
          c.	 	 B08 Entry Releases with No Follow-up Summaries Report at one port;
          d.	 B84 Budget Clearing Account Report at three ports;
          e.	 	 S21 Weekly Deletion Report at one port; and
          f.	 	 Q07 Unreported Quota Report at two ports, including supervisory review.
       �	 Lack of segregation of duties at one port; the supervisory review of the B06 report was
          conducted by the same person that processed the cancellations.
       �	 Evidence of segregation of duties could not be verified at one port related to the review of
          deleted entries on the S21 report.
       �	 One port did not properly work entries on the B08 report less than two weeks old because it
          allowed an importer 15 working days to submit all entry summaries and/or cancellation
          requests instead of the 10 days as prescribed in 19 CFR Section 142.12(b).

       Recommendations:
       We recommend that CBP:
       1.	 Reinforce the importance	 of the requirements of CBP Directive 5610-004B, published
           September 24, 2009, through written communications and, if necessary, through various
           training modes to ensure that the reports are being reviewed in accordance with established
           policy. Those reports consist of the B06, B07, B08, B84, and Q07.
       2.	 Reinforce the importance of the requirement of CBP Directive 5610-006 through updating
           the directive, issuing written communications and, if necessary, providing training to ensure
           that the S21 and B06 are properly reviewed and verified by the appropriate CBP officials.




                                                   4
 

                                   Department of Homeland Security
                                  U.S. Customs and Border Protection
                                   Financial Management Comments
                                         September 30, 2010


FMC 10-06: Lack of Implementation of Controls over Determining Capital Leases (NFR No. CBP
10-13)

       CBP can enter into three different types of leases, including personal property, real property, and
       Office of Information Technology (OIT) property (e.g., software/technology). CBP implemented
       a General Services Administration checklist to determine if a real property lease should be
       classified as capital or operating for both proprietary financial reporting purposes using the
       criteria from Statement of Federal Financial Accounting Standards (SFFAS) No. 6, Accounting
       for Property, Plant and Equipment, and for budgetary purposes using the criteria from OMB
       Circular No. A-11, Preparation, Submission, and Execution of the Budget. However, CBP has
       not implemented such a checklist for personal property leases or OIT property leases. Therefore,
       while CBP has partially developed a control over the classification of leases, this control has not
       been implemented for all lease types. Thus, there is no clear auditable documentation trail (for all
       lease types), such as a checklist, evidencing how CBP determines if a lease should be classified as
       capital or operating, considering the four capital lease criteria provided by SFFAS No. 6 and the
       six capital lease criteria provided by OMB Circular No. A-11.

       Recommendation:
       We recommend that the CBP Office of Administration, Financial Operations, update CBP
       Directive 5320-032C to reflect a detailed checklist for all lease types differentiating between
       operating and capital leases for both financial reporting under SFFAS No. 6 and budgetary
       accounting under OMB Circular No. A-11.

FMC 10-07: Lack of formal policies over review of Importer Self-Assessment (ISA) Annual
Notification Letters (NFR No. CBP 10-17)

       Based on our inquiry and review of CBP’s Mission Action Plan (MAP), Revenue and Receivables
       Management – Classification and Appraisal, we noted CBP is formalizing the requirements
       related to the review of the ISA Annual Notification Letters. In our FY 2010 audit, we noted that
       internal review checklists were completed for CBP’s review of Annual Notification Letters
       selected in our sample; however, CBP is currently following draft procedures over the completion
       of the checklists, as the finalized Standard Operating Procedures (SOPs) have not been approved.
       The checklist is one of the tools used to conclude on whether a company is eligible for continued
       participation in the ISA program. The elements described in the Revenue and Receivables
       Management – Classification and Appraisal MAP were not implemented as of September 30,
       2010.

       Recommendation:
       We recommend that CBP finalize, approve and implement the existing draft SOPs for the ISA
       program and continually update them to ensure effective management of the ISA program.

FMC 10-08: Failure to complete supervisory review of drawback claims (NFR No. CBP 10-18)

       We performed procedures over controls related to supervisory reviews of drawback claims for the
       first three quarters of the fiscal year. We reviewed 54 drawback claims from various ports that
       met the criteria for a supervisory review. During our testing, we noted that evidence of
       supervisory review, in accordance with the Drawback Handbook, could not be verified for three
       claims that met the supervisory review criteria.

                                                    5

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2010



       Recommendation:
       We recommend that CBP reinforce the importance of supervisory review by issuing written
       communications and updating existing drawback policy guidance to ensure that proper review of
       statistical (STAT) and first-time (FIRST) drawback claims take place.

FMC 10-09: Certification of Refund and Drawback Payments (NFR No. CBP 10-19)

       In the event that the chief/supervisor does not certify a payment, ACS defaults to automatically
       indicate that the Port Director certified a given payment, without the Port Director’s actual
       certification. CBP has designed and implemented a mitigating control to manually review, verify,
       and certify payments on the Check Proof Listing. However, this control is not codified in
       Standard Operating Procedures.

       Recommendation:
       We recommend that CBP update and publish the ACS Refund Certification Procedures to provide
       the necessary guidance to the field to ensure all necessary verifications are completed prior to
       issuance of a payment.

FMC 10-10: Failure to review the D28 Alert Report (NFR No. CBP 10-21)

       During our third quarter testing, we selected a sample of 21 Drawback Auto/Deemed Liquidation
       (D28) Alert Reports at each drawback port for review. We noted four instances in which
       evidence of review of the D28 Alert Reports could not be verified.

       Recommendation:
       We recommend that CBP update the drawback policy with more specific guidance on how to
       review and resolve items on the D28 Alert Report and reinforce the importance of reviewing the
       D28 Alert Report by issuing written communications to each of the drawback centers.

FMC 10-11: Deficiencies in CBP’s Controls over the application of benefits to Customs-Trade
Partnership Against Terrorism (C-TPAT) Partners (NFR No. 10-23)

       When testing the control surrounding the application of C-TPAT benefits to importer partners, we
       selected a sample of 45 partners and noted one C-TPAT partner’s benefits were suspended in
       C-TPAT’s Web Portal as the partner failed validation; however, this C-TPAT partner was still
       receiving benefits through the Automated Targeting System (ATS). Upon auditor inquiry, CBP’s
       C-TPAT office and the ATS team verified that the benefits status for that partner was not current
       in the ATS database due to an interface error between C-TPAT’s Web Portal and ATS. CBP
       determined this error could have affected any partners whose benefit status changed since the last
       quarterly reconciliation between the Web Portal and ATS. To prevent this issue from occurring
       through the remainder of the year, the ATS team developed scripts to run daily to ensure that all
       benefits designated by the Web Portal link to the benefits in ATS.




                                                   6
 

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2010


       Recommendations:
       We recommend that CBP:
       1.	 Continue the development of an automated script to interface the Tier Level Benefits in the C­
            TPAT Portal with ATS. This automated interface will replace the daily manual script
            currently performed by the ATS team.
       2.	 	Conduct bimonthly audits, by C-TPAT headquarters, of Tier Level Benefits in C-TPAT Portal
            and ATS. This audit will compare the benefits for each Importer of Record between ATS and
            C-TPAT to validate that ATS reflects the correct level of benefits as designated by the C­
            TPAT field director or supervisor that applied them.

FMC 10-12: Deficiencies in CBP’s controls over calculating the validity and collectability of non­
entity Taxes, Duties, and Trade Receivables, net (NFR No. CBP 10-28)

       While conducting procedures over a sample of 45 fine and penalty (F&P) cases related to CBP’s
       collectability and validity (C&V) process, we noted the following:

       �	 For 16 F&P cases, the “Validity and Collectability Analysis Checklists” completed at the port
           level were not properly completed as the “Validity and Collectability Analysis Checklists”
           did not match checklist guidelines and supporting documentation. We noted that 15 of the
           port level errors were corrected by the NFC Staff Accountant’s review of the checklists when
           completing the “results summary,” while one port level error was not corrected by the review.
       �	 For one F&P case noted in the above condition, the collectible amount was applied to the fine
           or penalty instead of to the loss of revenue first on the Collectability &Validity Checklist.
           The error was not corrected by the Staff Accountant during completion of the “results
           summary” and therefore, the error flowed through to the calculation of the collectability and
           validity percentages. However, this error had no impact on the amount recorded for Taxes,
           Duties, and Trade Receivables, net.
        �	 For two F&P cases, the information documented in the “Results and Analysis Spreadsheet”
           did not match the applicable “results summary.” Therefore, CBP used incorrect amounts to
           calculate the validity and collectability percentages by .25 percent, thus impacting the amount
           recorded for Taxes, Duties, and Trade Receivables, net.

       Recommendations:
       We recommend that CBP:
       1.	 Modify its review of the “Collectability and Validity Analysis Checklists” by preparing a
           calculation spreadsheet at the time the checklist review is conducted.
       2.	 Modify its procedures informing port office(s) of errors in their quarterly checklists.
       3.	 Reinforce guidance and importance of the checklists to ensure proper completion of the
           “Collectability and Validity Analysis Checklists.”

FMC 10-13: Deficiencies in CBP’s Seized Inventory Process (NFR No. CBP 10-33)

       We statistically selected ten seized property locations in which to observe the annual inventory
       and noted the following at the seized inventory vaults:
           Reporting:
           �	 For one seized item, the original shelf mass including packaging was not initially input
               into the Seized Assets and Case Tracking System (SEACATS). Instead, the seized item
               was only input into SEACATS at the net mass. As such, the mass measured during the

                                                   7

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2010


             inventory was significantly different from the mass reported in SEACATS. Due to the
             original incorrect entry into SEACATS, the percentage difference between SEACATS
             and the inventoried weight was greater than 2%. As the item was heroin, a hard narcotic,
             the difference should have been reported to Internal Affairs. However, the inventory
             counters stated that the difference was not going to be reported to Internal Affairs.
          �	 One seized item on the inventory count sheet listed three boxes; however, only two boxes
             were present in the vault. CBP was unable to provide documentation to explain the
             difference.

          Security:
          �	 One employee neglected to sign into the log-in sheet while entering the vault.
          �	 One employee signed into the log-in sheet alone on five different occasions.
          �	 A key to a hard narcotics cage was placed in an unsecure and open location within the
             vault.

      Upon review of the inventory completion packages, we noted the following:
         �	 Four instances in which the amounts counted during the annual inventory were not
             properly updated in SEACATS.
         �	 Three instances in which CBP did not record the inventory date in SEACATS following
             the inventory to reflect that the item had been counted, as required by the CBP Inventory
             Instructions.

      Recommendations:
      We recommend that CBP:
      1.	 Issue a memorandum to the Field Offices and ports reminding them of the requirement
           regarding the vault access and limitations as it pertains to the temporary and permanent
           storage facilities as outlined in the Seized Asset Management and Enforcement Procedures
           Handbook (SAMEPH) Sections 2.5.1 and 2.5.2.
      2.	 Issue a memorandum to the Field Offices and Ports reminding them of the requirement to
          report discrepancies outside of the allowable weight variance to the Joint Intake Center as
          outlined in Section 2.4.1.8.b of the SAMEPH.
      3.	 Remind Seized Property Supervisors and FP&F Officers during the FP&F Advanced training
          scheduled in December 2010 of the applicable requirements.
      4.	 Remind the field of the requirement to comply with policies as stipulated in the SAMEPH.
      5.	 Work with the Office of Administration to update the inventory instructions to outline specific
          details and address any ongoing issues and concerns.

FMC 10-14: Improper Payment of Interest (NFR No. CBP 10-34)

      During our FY 2010 procedures over the Prompt Payment Act, we selected 58 cash
      disbursements and noted two instances in which CBP entered incorrect payment terms in SAP.
      For the two exceptions identified, CBP incorrectly coded the payment terms as “Payable
      immediately Due net,” rather than as “Within 30 days Due net.” There was no indication in the
      obligating document that a payment term of less than net 30 existed. As a result, the system
      designated the payment due date as the same day these invoices were entered into SAP and
      interest began to accrue prior to 30 days.



                                                  8

                                   Department of Homeland Security
                                  U.S. Customs and Border Protection
                                   Financial Management Comments
                                         September 30, 2010


       After the obligations were entered into SAP, CBP’s review process did not detect the incorrect
       vendor payment terms. As a result, CBP made timely principal payments to vendors, but paid
       interest where no interest was due.

       Recommendations:
       We recommend that CBP:
       1.	 Identify all vendor records with a Z0002 code (“Payable immediately Due net”), determine if
           it is the correct code, and take corrective action for each vendor record that is coded
           incorrectly.
       2.	 Update the vendor ID procedures to include the verification of the code for payment terms.
       3.	 Run a semi-annual report to identify and verify vendor records with a Z0002 coding. T   	 his
           report should be run, reviewed, and vendor records updated.
       4.	 Update the work instructions in SAP to include guidance related to the selection of payment
           terms for miscellaneous obligating documents (Bills of Lading and Standard Form-182
           Training documents).

FMC 10-15: Insufficient Documentation of Statement on Auditing Standards (SAS) No. 70 review
(NFR No. CBP 10-35)

       CBP management should review the Service Auditor’s United States Department of Agriculture’s
       (USDA) SAS No. 70 Report on National Finance Center General Controls annually, in order to
       detect control weaknesses in USDA’s general control environment that could lead to potential
       misstatements to the financial statements. Through this review, CBP gains an understanding of
       the control environment surrounding USDA’s payroll processing system, and how it influences
       CBP’s internal control environment. CBP was unable to provide written evidence documenting
       the review of USDA’s annual SAS No. 70 report for the fiscal year 2010, and therefore did not
       document a response to any deficiencies identified by USDA’s service auditor (if applicable).

       Recommendation:
       We recommend that CBP document its review of the USDA SAS No. 70.

FMC 10-16: Deficiencies in CBP’s Office of Air and Marine (OAM) Inventory Process (NFR No.
CBP 10-40)

       We selected four OAM sites, from a total of 26 sites, in which to observe the physical inventory,
       as well as obtained signed certifications for the OAM sites not visited. While at these four sites,
       we selected at least 45 items to perform test counts. In addition, we selected five sites in which to
       obtain fifteen backlog inventory items identified during the physical inventory for each site. As a
       result, we noted the following:

       Physical Inventory:
       �	 Three items selected from the floor were not recorded in Computerized Aircraft Reporting
          and Material Control System (CARMAC), nor were they recorded as write-in items from the
          inventory. In accordance with the SOP, these items should have been recorded on the
          Inventory Adjustments Report – Transactions in order to be properly input into CARMAC
          upon completion of the inventory. However, these items were not reported on the Inventory
          Adjustments Report – Transactions and therefore, were not included in the final inventory
          count.

                                                    9

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2010


       �	 Two items selected from the floor were recorded incorrectly on the Inventory Adjustments
          Report – Transactions. Specifically, the actual inventory count amount noted on the count
          sheets was recorded incorrectly on the Inventory Adjustments Report – Transactions, which
          understated gains on this report.
       �	 Three instances in which the amounts counted during the physical inventory were not
          accurately recorded on the count sheets. Two of these items were selected from the count
          sheet and the third item was selected from the floor.
       �	 Two items selected as part of the backlog sample were not accurately recorded to the
          “Inventory Adjustment Report – Non-Reportable.” As the inventory count recorded was not
          accurate, the adjustments were understated.
       �	 Five items selected did not undergo a second count by DS2, although the first count of the
          inventory item did not agree to the amount recorded in CARMAC. In accordance with the
          SOP, a second count is required when a discrepancy is noted between the inventory count and
          CARMAC.

       Certification:
       �	 One instance in which CBP certified to the existence of the same inventory in two different
          locations. Specifically, the certified Repairs and Transfers amount from one site was
          included in the Repairs and Transfers amount from another, unrelated site.

       Reporting:
 

       Upon review of the 9/30/10 OAM Adjusting Journal Entries (AJE), we noted the following:
 

       �	 CBP did not include certain immaterial inventory items in its inventory balance. Specifically,
          CBP excluded the amounts reported on the “Inventory Adjustment Report – Non-Reportable”
          and the “Inventory Adjustment Report – Transactions” from the 9/30/10 CARMAC AJE.

       Recommendation:
       We recommend that CBP monitor and evaluate the effectiveness of its internal controls over the
       physical air inventory.

FMC 10-17: Inability to Support the Injured Domestic Industries (IDI) Liability (NFR No. CBP 10­
41)

       During our testwork over the IDI liability as of September 30, 2010, CBP was unable to provide
       detailed documentation at the individual dumping case level to support the entire amount of the
       liability reported in its financial statements. In fiscal year 2006, CBP began tracking amounts
       held due to pending litigation on the Continued Dumping and Subsidy Offset Act of 2000
       (CDSOA) annual reports. No funds were withheld due to pending litigation prior to fiscal year
       2006. The amounts held due to pending litigation reported on the CDSOA annual reports and the
       amount of entries liquidated in FY 2010, which are set to be paid in FY 2011, sum to an amount
       below the IDI liability reported. CBP was unable to provide detailed documentation to support
       the remaining amounts recorded in its general ledger.

       Recommendation:
       We recommend that CBP research and develop policy to ensure all amounts recorded in the
       general ledger for the IDI liability are fully supportable.



                                                  10

                                                                                                          Appendix A
                                 U.S. Customs and Border Protection
                     Crosswalk – Financial Management Comments to Active NFRs
                                         September 30, 2010


                                                                                       Disposition*
                                                                         Independent Auditors’ Report    FMC
            NFR                                                       Material   Significant     Non-
Component                            Description                                                      Page No.
            No.                                                       Weakness Deficiency Compliance
                     Untimely deobligation of inactive
  CBP       10-01                                                                  D
                     obligations
                     Federal Financial Management
                                                                                             Compliance
                     Improvement Act (FFMIA): Lack of system
                                                                                             Determined
                     integration and compliance with the United
  CBP       10-02                                                                                at
                     States Standard General Ledger (USSGL) at
                                                                                             Department
                     the transaction level related to Inventory and
                                                                                               Level
                     Related Property, Net
                     ACS Limitations – Review of Prior Related
  CBP       10-03    Drawback Claims and Selectivity for                 A
                     Underlying Consumption Entries
                                                                                             Compliance
                     ACS deficiencies over non-entity Accounts                               Determined
  CBP       10-04    Receivable and CBP’s ability to effectively                                 at
                     monitor collection actions                                              Department
                                                                                               Level
                     ACS deficiency over the accumulation of
  CBP       10-05                                                                                          2   10-01
                     claims against a drawback bond
  CBP       10-06    Rescinded                                   Not Applicable
                     Improper Control Design of “Failed
  CBP       10-07                                                                                          2   10-02
                     Disbursements Report”
                     Lack of controls over timely processing of
  CBP       10-08                                                                                          3   10-03
                     goods and services received
                     Weaknesses in CBP’s Search for
  CBP       10-09    Unrecorded Accounts Payable Used to                           B
                     Support the Accounts Payable Estimate
                     Weaknesses in the monitoring and review
  CBP       10-10                                                                                          3   10-04
                     process over the completion of FP&F cases
                     Weakness in the review of weekly/monthly
  CBP       10-11                                                                                          4   10-05
                     Entry edit reports
                     Weaknesses in CBP’s process related to
                     asset additions and classification of
  CBP       10-12                                                                  C
                     Property, Plant, and Equipment (PP&E)
                     related transactions
                     Lack of Implementation of Controls over
  CBP       10-13                                                                                          5   10-06
                     Determining Capital Leases
  CBP       10-14    Deficiencies in the In-Bond Process                           E
                     Weaknesses in CBP’s Process related to
  CBP       10-15                                                                  C
                     asset disposals as of 4/30/2010
                     Weaknesses in CBP’s Process related to
  CBP       10-15b   asset disposals as of 7/31/2010 and                           C
                     9/30/2010
                     Insufficient Retention Period for Documents
  CBP       10-16                                                    A
                     that Support Drawback Claims
                     Lack of formal policies over review of
  CBP       10-17    Importer Self-Assessment Annual                                                       5   10-07
                     Notification Letters
                     Failure to complete supervisory review of
  CBP       10-18                                                                                          5   10-08
                     drawback claims
                     Certification of Refund and Drawback
  CBP       10-19                                                                                          6   10-09
                     Payments
  CBP       10-20    Detection of Excessive Drawback Claims          A

                                                           11
 

                                                                                                        Appendix A
                                 U.S. Customs and Border Protection
                     Crosswalk – Financial Management Comments to Active NFRs
                                         September 30, 2010


                                                                                         Disposition*
                                                                      Independent Auditors’ Report    FMC
            NFR                                                    Material   Significant     Non-
Component                            Description                                                   Page No.
             No.                                                   Weakness Deficiency Compliance
  CBP       10-21    Failure to Review the D28 Alert Report                                         6 10-10
                     Weaknesses in Controls over Automated
                     Journal Entries and Misstatement of
  CBP       10-22                                                                    B
                     Liabilities related to Injured Domestic
                     Industries
                     Deficiencies in CBP’s controls over the
  CBP       10-23                                                                                        6    10-11
                     application of benefits to C-TPAT Partners
                     Weaknesses in CBP's Process Related to
  CBP       10-24    Recording Construction Percentage of                            C
                     Completion Amounts
                     Improper Settlement of Assets, including
  CBP       10-25    Untimely Capitalization of Assets from                          C
                     Construction-in-Progress (CIP) as of 4/30/10
                     Improper Settlement of Assets, including
  CBP       10-25b   Untimely Capitalization of Assets from CIP                      C
                     as of 7/31/10 and 9/30/10
  CBP       10-26    Oversight of financial reporting issues                         B
                     Lack of supporting documentation for intra-
  CBP       10-27    departmental eliminating journal entries                        B
                     related to Operating Expenses
                     Deficiencies in CBP's controls over
                     calculating the validity and collectability of
  CBP       10-28                                                                                        7    10-12
                     non-entity Taxes, Duties, and Trade
                     Receivables, net
  CBP       10-29    Management Oversight of PP&E                                    C
                     Weaknesses identified in the Bonded
  CBP       10-30    Warehouse and Foreign Trade Zone                                E
                     processes and procedures
                     Inadequate Oversight of Trade Compliance
  CBP       10-31                                                                    E
                     Measurement
                     Control Deficiencies over Manual Journal
  CBP       10-32                                                                    B
                     Entries
                     Deficiencies in CBP's Seized Inventory
  CBP       10-33                                                                                        7    10-13
                     Process
  CBP       10-34    Improper Payment of Interest                                                        8    10-14
                     Insufficient Documentation of SAS No. 70
  CBP       10-35                                                                                        9    10-15
                     review
                     Weaknesses in CBP's process related to
  CBP       10-36    asset additions and classification of                           C
                     transactions as of 7/31/10 and 9/30/10
  CBP       10-37    Number not Used                                Not Applicable
  CBP       10-38    Number not Used                               Not Applicable
                     Untimely deobligation of Undelivered
  CBP       10-39                                                                    D
                     Orders
                     Deficiencies in CBP’s OAM Inventory
  CBP       10-40                                                                                        9    10-16
                     Process
  CBP       10-41    Inability to Support the IDI Liability                                              10   10-17




                                                          12
 

                                                                                        Appendix A
                                      U.S. Customs and Border Protection
                          Crosswalk – Financial Management Comments to Active NFRs
                                              September 30, 2010


*Disposition Legend:
 

FMC       Financial Management Comment
 


The following links to the applicable sections of the Independent Auditors’ Report: 

A        Drawback of Duties, Taxes, and Fees 

B        Financial Reporting 

C        Property, Plant, and Equipment
D        Inactive Obligations
E        Entry Process




                                                               13
 

                                                                                                         Appendix B
                                U.S. Customs and Border Protection
                                   Status of Prior Year Findings
                                        September 30, 2010


                                                                                           Disposition
            NFR
Component                                  Description                          Closed    Repeat (10 NFR No.)
            No.
                    Verification of Check Proof Listing and Certification of
  CBP       09-01                                                                                 CBP-10-19
                    Payments
  CBP       09-02   Detection of Excessive Drawback Claims                                        CBP-10-20
                    Insufficient Retention Period for Documents that Support
  CBP       09-03                                                                                 CBP-10-16
                    Drawback Claims
                    ACS deficiency over the accumulation of claims against a
  CBP       09-04                                                                                 CBP-10-05
                    drawback bond
  CBP       09-05   Deficiencies in the In-Bond Process                                           CBP-10-14
                    FFMIA - Lack of system integration and compliance with
  CBP       09-06   the USSGL at the transaction level related to Air and Marine                  CBP-10-02
                    Operation (AMO) inventory
                    ACS deficiencies over non-entity Accounts Receivable and
  CBP       09-07                                                                                 CBP-10-04
                    CBP's ability to effectively monitor collection actions
                    ACS Limitations – Review of Prior Related Drawback
  CBP       09-08                                                                                 CBP-10-03
                    Claims and Selectivity for Underlying Consumption Entries
  CBP       09-09   Number not used                                              Not applicable
  CBP       09-10   Number not used                                             Not applicable
  CBP       09-11   Number not used                                             Not applicable
  CBP       09-12   Failure to complete supervisory review of drawback claims                     CBP-10-18
  CBP       09-13   Number not used                                             Not applicable
  CBP       09-14   Number not used                                             Not applicable
                    Weaknesses identified in the Bonded Warehouse and
  CBP       09-15                                                                                 CBP-10-30
                    Foreign Trade Zone process and procedures
                    Weakness in the monitoring, review, and oversight process
  CBP       09-16                                                                                 CBP-10-10
                    over the completion of FP&F cases
                    Inadequate Oversight of Entry Summary Compliance
  CBP       09-17                                                                                 CBP-10-31
                    Measurement
                    Weakness in the review of weekly/monthly Entry edit
  CBP       09-18                                                                                 CBP-10-11
                    reports
  CBP       09-19   Number not used                                             Not applicable
  CBP       09-20   Number not used                                             Not applicable
  CBP       09-21   Number not used                                             Not applicable
  CBP       09-22   Number not used                                             Not applicable
  CBP       09-23   Untimely deobligation of inactive obligations                        CBP-10-01, CBP-10-39
                    Improper settlement of assets, including untimely
  CBP       09-24                                                                        CBP-10-25, CBP-10-25b
                    capitalization of assets from CIP
  CBP       09-25   Number not used                                             Not applicable
  CBP       09-26   Number not used                                             Not applicable
  CBP       09-27   Number not used                                             Not applicable
  CBP       09-28   Miscellaneous seized inventory findings                                       CBP-10-33
                    Lack of formal policies over review of Importer Self-
  CBP       09-29                                                                                 CBP-10-17
                    Assessment annual notification letters
  CBP       09-30   Weaknesses in CBP’s processes related to asset additions             CBP-10-12, CBP-10-36
  CBP       09-31   Number not used                                             Not applicable
  CBP       09-32   Number not used                                             Not applicable
  CBP       09-33   Weaknesses in recording Facilities Management &                        CBP-10-24 (in part)


                                                     14
 

                                                                                                           Appendix B
                                 U.S. Customs and Border Protection
                                   Status of Prior Year Findings
                                        September 30, 2010

                                                                                             Disposition
            NFR
Component                                   Description                            Closed    Repeat (10 NFR No.)
            No.
                    Engineering (FM&E) Tactical Infrastructure (TI) CIP
                    Misstatement of the 3/31/09 Secure Border Initiative (SBI)
  CBP       09-34                                                                    X
                    CIP
  CBP       09-35   Lack of Controls over Capital Leases                                         CBP-10-13
                    Misstatement of the 3/31/09 Inventory and Related Property,
  CBP       09-36                                                                    X
                    Net
                    Lack of controls over the timely processing of goods and
  CBP       09-37                                                                                CBP-10-08
                    services received
                    Weakness in CBP's management review of the financial
  CBP       09-38                                                                    X
                    statements
                    Weaknesses in CBP's assessment and identification of
  CBP       09-39                                                                                CBP-10-26
                    new/relevant financial reporting issues
  CBP       09-40   Management oversight of PP&E                                                 CBP-10-29
  CBP       09-41   Weaknesses in accounting for the SBInet program                  X
                    Weaknesses in CBP's process related to asset
  CBP       09-42                                                                           CBP-10-15, CBP-10-15b
                    disposals/retirements
  CBP       09-43   Weaknesses in CBP's classification of PP&E transactions                 CBP-10-12, CBP-10-36
  CBP       09-44   Weakness in CBP's management review of contracts                 X
                    Deficiencies in CBP's controls over calculating the validity
  CBP       09-45   and collectability of non-entity Taxes, Duties, and Trade                    CBP-10-28
                    Receivables, net
                    Deficiencies in CBP’s controls over the application of
  CBP       09-46                                                                                CBP-10-23
                    benefits to C-TPAT Partners
  CBP       09-47   Weaknesses in accounting for Imputed Financing                   X




                                                      15
 

                                                                                                           Appendix C
                              U.S. Customs and Border Protection
              Management Response to the Draft Management Letter
                            September 30, 2010



                                                                          1300 Pl:nnsylvm..i~ A>Tnu," NW
                                                                          Wnbington. IX: 20229


                                                                          u.s. Customs ;md
                                                                          Border Protection

MAR 0 ~ 1011

MEMORANDUM FOR:                  Anne L. Richards
                                 Assistant Inspector General for Audits
                                 Department of Homeland Security

FROM:                            Deborah J. Schilling
                                 Chief Financial Officer
                                 U.S. Customs and Border Protection

SUBJECT:                         Managemcnt Response to Management Lcttcr Rcport on U.S.
                                 Customs and Border Protection's Fiscal Year 201 0 Consolidated
                                 Financial Statements

On behalf of U.S. Customs and Border Protection (C8P). I am responding to the draft rcport
cntitled, "Management Leller fOr u.s. Customs and Border Protection 's Fiscal Yc(/rlOJO
COllsolilla/cd Fin(lIIcia{ S/aiemCIIlS.·'

We have reviewed and concurred with all weaknesses containcd in the draft report. Mission
Action Plans (MAPs) outlining CBP's strategy to correct the conditions we concurred with in the
draft report will he prepared and provided to KPMG. CBP will continuc to work to resolvc 1111
auditor identified weaknesses.

CDI' appreciates the opportunity to review this year's rcport and looks forward to continuing our
professional auditing relationship with your office. If you have any questions or would like
additional information, please contact me at (202) 344-2300. or a memher of your starr may
contact Mari Boyd, Executivc Director. Financial Operations. at (202) 344-2364.




Deborah J. Schilling


Attachments




                                                  16
 

Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
